                        Testimony of Karl W. Schornagel
                    Inspector General, the Library of Congress
              House of Representatives, Congress of the United States
                 Committee on Oversight and Government Reform
   Subcommittee on Federal Workforce, Postal Service, and the District of Columbia
                               September 16, 2008


Chairman Davis, I am pleased to be able to address with you today the issue of workforce
diversity at the Library of Congress.

We performed a review of the Library’s diversity management program and initiatives in
response to your November 14, 2007 request and issued a final report for the Library in
July 2008. Our report along with reports from the Inspectors General of the Architect of
the Capitol, Government Accountability Office, Government Printing Office, and the
United States Capitol Police were consolidated in a capping report prior to this hearing.

Our objectives were to 1) determine whether each agency’s diversity programs and
initiatives are achieving better representation of women and minorities in top leadership
positions, 2) evaluate the accuracy and completeness of the complaint and discrimination
data the agencies have reported to Congress, and 3) assess the extent to which each
agency’s diversity office is independent of its General Counsel and agency head.
For our review, we defined senior level positions as those in the Library’s Senior Level
Executive, or ”SL” system, which is roughly equivalent to the SES system. We defined
the SL developmental pool as positions in the GS-13 to 15 range.
For the fiscal year ended September 30, 2007, the Library reported a total workforce of
3,786 staff of which 55.2 percent were women and 45.6 percent were minorities. These
percentages are above federal and civilian workforce levels. Included in these numbers
are 95 senior level executives of which 43.2 percent were women and 21.1 percent were
minorities. The representation of both women and minorities is significantly higher than
the governmentwide average and slightly lower than the civilian labor force.

Women are similarly represented in the developmental pool. Minority representation in
the development pool is lower than the government and civilian workforces, although
there has been progress in the past five years. We determined, and the Library agreed,
that there are several ways to further improve the Library’s diversity program.

                             Findings from our July Report

The Library is Adopting Many of the Best Practices In Diversity Management ―
Our assessment found that the Library is following most of the best practices
recommended by the Government Accountability Office and the Equal Employment
Opportunity Comission. This includes linking its diversity plan and its strategic plans,
and including diversity as a major element in managers’ performance requirements. The
Library’s Office of Workforce Diversity (OWD) is taking steps to better focus its efforts
on identifying potential systemic barriers, if any, impeding full minority participation in
upper level positions.
In addition to increasing its focus on barrier analysis and measuring program
effectiveness, the Library needs to complete its succession planning efforts. These are a
major element in diversity management. The Library also needs to ensure that the
service units are committing to and implementing diversification activities. Success of
the Library’s affirmative action initiatives depends, in large part, on the service units’
success in providing equal employment and affirmative action opportunities.

The Library Has Made Progress in Improving the Developmental Pool ― Despite
the favorable comparison of the Library’s senior level staffing with the executive branch
and the genuine efforts we believe the Library has made and is making to improve,
diversity in its senior level positions has remained constant since 2002. However,
progress has been made in diversifying GS-13 to 15 positions. This bodes well for the
future because GS-15 positions are widely considered to be the developmental pool for
senior level jobs.

For librarian positions, the Library’s efforts to achieve more diversity in the management
ranks are hindered by the lack of qualified applicants. According to the American
Library Association, the percentage of credentialed minority librarians lags significantly
behind the representation of minorities in the civilian labor force. This highlights the
importance of in-house grooming of current staff through training and mentoring
programs.
The Library’s Diversity Office is Independent and its Data is Accurate and
Complete ― Results of tests we performed showed that the Library’s EEO data is
accurate and complete. Likewise, we concluded that the Library’s OWD and its
component Equal Employment Opportunity Complaints Office are independent of the
Library’s General Counsel, Human Resources Director, and, to the extent practical, the
Librarian.

                                        Conclusion

Overall, we determined that the Library is committed to diversity. Union officials we
spoke with believed that the Library’s diversity and equal employment policies and
procedures, as well as its Merit Selection Plan, promote diversity in the workplace.
Likewise, the Library has effective diversity programs, if fully implemented.

The most successful organizations of the future are ones that are currently identifying and
developing high potential executives, of any age, culture, ethnicity, gender, geographic
background, or sexual orientation. The Library needs to ensure that through its
succession planning strategies and training, employees in the GS-13 to 15 range will
broaden their leadership skills and step into senior management roles when the
appropriate time comes.
In addition to assessing diversity in the Library workforce and the GS-13 to 15 and senior
level positions (as we did in our review), it is equally important for the OWD to examine
whether there are differences among the Library’s service units. A high concentration of
a minority group in one service unit may distort the Library’s overall statistics regarding
hiring, promotions, awards, and performance evaluations.

The Library has an effective and accurate complaint tracking and monitoring system in
place. As we reported in September 2007, the OWD is working to assure accuracy and
completeness of its Alternative Dispute Resolution data.

Numbers alone do not reflect efforts to encourage interchanges among staff of various
races and ethnic backgrounds. The Library of Congress Professional Association
sponsors foreign language tables for staff who speak or wish to learn various languages.
The Library sponsors multiple “heritage month” programs intended to highlight diversity.
Similarly, the Library has many cultural associations (such as Blacks in Government,;
Daniel A.P. Murray Association; Asian American Association; Gay, Lesbian or Bisexual
Employees; and Hispanic Cultural Association) that promote awareness and
understanding of differences.

The Library and its OWD face challenges in ensuring a diverse workforce. In addition to
the challenges of recruiting and retaining women and minority candidates, the OWD
faces the challenge of gaining the “buy-in” of key employees, such as the middle
managers, who are often responsible for implementing many of the affirmative action
programs. Without a sustained commitment from management at all levels, diversity at
the management level may continue unchanged over time. Thurgood Marshall, late
Justice of the United States Supreme Court stated that “The legal system can force open
doors and sometimes even knock down walls. But it cannot build bridges. That job
belongs to you and me.”
